<html>
<title> - H.R. 5126, THE TRUTH IN CALLER ID ACT OF 2006 HEARING BEFORE THE SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION MAY 18, 2006 Serial No. 109-92 Printed for the use of the Committee on Energy and Commerce</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      H.R. 5126, THE TRUTH IN  
                       CALLER ID ACT OF 2006


                               HEARING

                              BEFORE THE

                 SUBCOMMITTEE ON TELECOMMUNICATIONS 
                          AND THE INTERNET

                               OF THE 

                   COMMITTEE ON ENERGY AND COMMERCE

                       HOUSE OF REPRESENTATIVES


                       ONE HUNDRED NINTH CONGRESS

                            SECOND SESSION


                             MAY 18, 2006

                           Serial No. 109-92

Printed for the use of the Committee on Energy and Commerce


                                _____ 


                 U.S. GOVERNMENT PRINTING OFFICE

29-451 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




Available via the World Wide Web:  
http://www.access.gpo.gov/congress/house




                   COMMITTEE ON ENERGY AND COMMERCE
JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas
MICHAEL BILIRAKIS, Florida
  Vice Chairman
FRED UPTON, Michigan
CLIFF STEARNS, Florida
PAUL E. GILLMOR, Ohio
NATHAN DEAL, Georgia
ED WHITFIELD, Kentucky
CHARLIE NORWOOD, Georgia
BARBARA CUBIN, Wyoming
JOHN SHIMKUS, Illinois
HEATHER WILSON, New Mexico
JOHN B. SHADEGG, Arizona
CHARLES W. "CHIP" PICKERING,  Mississippi 
  Vice Chairman
VITO FOSSELLA, New York
ROY BLUNT, Missouri 
STEVE BUYER, Indiana
GEORGE RADANOVICH, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
C.L. "BUTCH" OTTER, Idaho
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee
JOHN D. DINGELL, Michigan
  Ranking Member
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, JR., New Jersey
SHERROD BROWN, Ohio
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
TED STRICKLAND, Ohio
DIANA DEGETTE, Colorado
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
TOM ALLEN, Maine
JIM DAVIS, Florida
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas


BUD ALBRIGHT, Staff Director
DAVID CAVICKE, General Counsel
REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET
FRED UPTON, Michigan, Chairman
MICHAEL BILIRAKIS, Florida
CLIFF STEARNS, Florida
PAUL E. GILLMOR, Ohio
ED WHITFIELD, Kentucky
BARBARA CUBIN, Wyoming
JOHN SHIMKUS, Illinois
HEATHER WILSON, New Mexico
CHARLES W. "CHIP" PICKERING,  Mississippi 
VITO FOSSELLA, New York
GEORGE RADANOVICH, California
CHARLES F. BASS, New Hampshire
GREG WALDEN, Oregon
LEE TERRY, Nebraska
MIKE FERGUSON, New Jersey
JOHN SULLIVAN, Oklahoma
MARSHA BLACKBURN, Tennessee
JOE BARTON, Texas
  (EX OFFICIO)
EDWARD J. MARKEY, Massachusetts
  Ranking Member
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
MIKE DOYLE, Pennsylvania
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, JR., New Jersey
SHERROD BROWN, Ohio
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
JOHN D. DINGELL, Michigan
  (EX OFFICIO)


CONTENTS


Page
Testimony of:

Navin, Tom, Wireline Bureau Chief, Federal Communications Commission 16
Pies, Staci, Vice President, PointOne Communications, on behalf of 
Voice on the Net (VON) Coalition 19 James, Lance, Chief Technology 
Officer, Secure Science Corporation 24 Rotenberg, Marc, Executive 
Director, Electronic Privacy Information Center	27 
Additional material submitted for the record: 

Sloane, David, Sr. Managing Director, Government Relations and 
Advocacy, AARP, submission for the record 41




H.R. 5126, THE TRUTH IN 
CALLER ID ACT OF 2006


THURSDAY, MAY 18, 2006

HOUSE OF REPRESENTATIVES,
COMMITTEE ON ENERGY AND COMMERCE,
SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET,
Washington, DC.


The Subcommittee met, pursuant to notice, at 9:09 a.m., in room 2123 
of the Rayburn House Office Building, Hon. Fred Upton (chairman) 
presiding.
	Members present:  Representatives Shimkus, Terry, Barton 
(ex officio), Markey, Engel, and Inslee. 
	Staff present:  Kelly Cole, Counsel; Jaylyn Jensen, Senior 
Legislative Analyst; Howard Waltzman, Chief Counsel for 
Telecommunications; Anh Nguyen, Legislative Clerk; Johanna Shelton, 
Minority Counsel; and Peter Filon, Minority Counsel. 
MR. UPTON.  The witnesses can take their respective chairs.  
Good morning.  Now, there was a comment on the floor last night--or 
I should say this morning, that another vote on a certain issue will 
take place tomorrow.  I said, it is tomorrow.  For those of you that 
were watching C-SPAN, most of us did not get home from votes on the 
budget until pretty close to 2:00 a.m., and I actually thought this 
hearing was starting at 10:00, but I saw that it was at 9:00.  And I 
may be the only Member here this morning for the hearing, although I 
do understand that Mr. Shimkus is at a breakfast.  I hope they have a 
lot of coffee.  I understand that Mr. Engel is en route.  I understand 
that Mr. Markey is en route, but I know Mr. Markey well, and there is 
a stop at Starbucks that he never fails to make, so we will see if 
they have a long line or not with this hearing.  
	But I am going to make a unanimous consent--and I did see Mr. 
Chairman Barton.  He gave me a big smile, and he said he would be here, 
but I also know that he has been under the weather and under some 
medical assistance with vertigo, and it caused him to not get back 
from Texas until late yesterday afternoon.  So we are going to start. 
 I will make a unanimous consent that all Member statements will be 
made part of the record without a problem.  And I will speak slowly, 
hoping that Mr. Engel will get here as his office is just down the 
hallway. 
	But anyway, today's hearing--I am going to have one more slug 
of coffee, it has not kicked in yet--is on H.R. 5126, the Truth in 
Caller ID Act of 2006, bipartisan legislation introduced by Chairman 
Barton and Eliot Engel, and I commend both for their leadership.  
I am delighted to be a proud cosponsor of the legislation.  Caller 
ID "spoofing" occurs when a caller fakes his caller ID information, 
so that the number which appears on the recipient's caller ID screen 
is not the caller's actual phone number.  In many cases, such 
"spoofers" are actually transmitting someone else's caller ID 
information instead of their own.  Apparently, some "spoofers" just 
do it to play practical jokes on their friends, but, in fact, there 
have been reports of much more sinister uses of "spoofing". 
	In some instances, "spoofing" is being used to trick people 
into thinking the person on the other end of the line is someone 
from a government agency, or some other presumably trustworthy 
party.  For instance, in this month's AARP Bulletin, there is a 
consumer alert describing a prevalent scam where spoofers get the 
local courthouse's phone number to pop up on people's caller ID 
screens, and then they tell the recipients of the calls that they 
are judicial officials in order to get the unsuspecting victims to 
divulge personal information, like Social Security numbers, driver's 
license numbers, et cetera, while enforcement officials are 
particularly concerned about senior citizens' susceptibility to such 
scams.  
Another important case involved a SWAT team that surrounded an 
apartment building after police received a call from a woman who said 
she was being held hostage in an apartment.  As it turned out, it 
was a false alarm--caller ID was "spoofed" to make it look like it 
was coming from the apartment.  Apparently, it was somebody else's 
idea of a bad prank.  
In other instances, criminals are stealing credit card numbers, 
getting the phone number of the actual cardholder, and then using 
those credit cards to use to get unauthorized wire transfers.  
In such cases, the criminal "spoofs" his caller ID information so 
that the number which pops up on the wire transfer operator's screen 
is that of the actual cardholder.  Because such caller ID information 
matches the actual cardholder's phone number on record with the 
credit card company, the wire transfer company uses it to authorize 
the wire transfer.  Thus "spoofing" enables the crime to be 
consummated.  
And, of course, many of us are familiar with our own credit card 
companies which may ask us to call from our home phone to 
authenticate and activate those new cards.  If the new card is 
stolen out of the mail, then criminals may be able to "spoof" our 
home phone numbers and authenticate and activate our new cards from 
the convenience of their own homes, or motel rooms, or from whatever 
rock they might decide to crawl under. 
	While such "spoofing" has been technically possible for some 
time, it used to require specific phone connections and expensive 
equipment.  However, with the advent of VoIP, Voice over Internet 
Protocol, it has become easier for callers to transmit any caller ID 
information that the caller might choose.  Moreover, there are online 
companies which offer "spoofing" services for just a few bucks to 
anyone with a phone.  
Unfortunately, nefarious uses of "spoofing" appear to be proliferating, 
and there is no law that actually protects the American public from 
it.  The Truth in Caller ID Act of 2006 would make "spoofing" 
illegal.  More specifically, it would make it unlawful for any 
person to cause any caller identification service to transmit 
misleading or inaccurate caller identification information--other 
than for authorized activities of law enforcement agencies--and 
require the FCC to issue implementing regulations within six months 
of enactment.  
Today we will hear from our witnesses about the problems of 
"spoofing" and their suggestions about how this bill, the Truth in 
Caller ID Act of 2006, might be improved.  I look forward to hearing 
from our witnesses.  I appreciate you being here on time, and also my 
colleague from Nebraska being on time.  Mr. Terry, would you like to 
make an opening statement? 
	[The prepared statement of Hon. Fred Upton follows:] 

PREPARED STATEMENT OF THE HON. FRED UPTON, CHAIRMAN, SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET 

Good morning.  Today's hearing is on H.R. 5126, the Truth in Caller 
ID Act of 2006, bipartisan legislation introduced by Chairman Barton 
and Elliot Engel, who I commend for their leadership.  I am a proud 
cosponsor of their bill.  
Caller ID "spoofing" occurs when a caller fakes his caller ID 
information, so that the number which appears on a recipient's caller 
ID screen is NOT the caller's actual phone number.  In many cases, 
such "spoofers" are actually transmitting someone else's caller ID 
information instead of their own.  
Apparently, some "spoofers" just do it to play practical jokes on 
their friends.  But there have been reports of much more sinister 
uses of "spoofing".  
In some instances, "spoofing" is being used to trick people into 
thinking the person on the other end of the line is someone from a 
government agency -- or some other presumably trustworthy party.  
For instance, in this month's AARP Bulletin there is a consumer 
alert describing a prevalent scam whereby "spoofers" get the local 
courthouse's phone number to pop-up on peoples' caller ID screens 
and then tell the recipients of the calls that they are judicial 
officials in order to get unsuspecting victims to divulge personal 
information, like Social Security numbers and drivers license numbers. 
Law enforcement officials are particularly concerned about senior 
citizens' susceptibility to such scams.  
	Another reported case involved a SWAT team surrounding an 
apartment building after police received a call from a woman who said 
she was being held hostage in an apartment.  As it turned out, it was 
a false alarm -- caller ID was "spoofed" to make it look like it was 
coming from that apartment.  Apparently, it was someone's idea of a 
bad prank. 
In other instances, criminals are stealing credit card numbers, 
getting the phone number of the actual cardholder, and then using 
those credit cards to get unauthorized wire transfers.  In such cases, 
 the criminal "spoofs" his caller ID information so that the number 
which pops-up on the wire transfer company operator's screen is that 
of the actual card holder's.   Because such caller ID information 
matches the actual card holder's phone number on record with the 
credit card company, the wire transfer company uses it to authorize 
the wire transfer.  Thus, "spoofing" enables the crime to be 
consummated. 
	And, of course, many of us are familiar with our own credit 
card companies which may ask us to call from our home phones to 
authenticate and activate our new cards.  If our new cards are stolen 
out of the mail, then criminals may be able to "spoof" our home phone 
numbers and authenticate and activate our new cards from the 
convenience of their own homes or motel rooms -- or from whatever rock 
they crawl under.  
	While such "spoofing" has been technically possible for some 
time, it used to require specific phone connections and expensive 
equipment.  However, with the advent of VoIP, it has become easier 
for callers to transmit any caller ID information that the caller 
chooses.  Moreover, there are online companies which offer "spoofing" 
services for a few bucks to anyone with any phone. 
Unfortunately, nefarious uses of "spoofing" appear to be 
proliferating, and there is no law protecting the American public 
from it.   The Truth in Caller ID Act of 2006 would make "spoofing" 
illegal.  More specifically, it would make it unlawful for any person 
to cause any caller identification service to transmit misleading or 
inaccurate caller identification information - other than for 
authorized activities of law enforcement agencies -- and require the 
FCC to issue implementing regulations within six months of enactment. 
Today, we will hear from out witnesses about the problem of "spoofing" 
and their suggestions about how the Truth In Caller ID Act of 2006 
might be improved.  I look forward to hearing from our witnesses 
today, and I appreciate them being here with us. 

	MR. TERRY.  Thank you, Mr. Chairman.  And I--not necessarily 
on time by Michigan and Nebraska standards, but getting here at 10 
after in D.C. is actually early for a meeting. 
	MR. UPTON.  I gave a long-winded opening statement just so 
that you could get here. 
	MR. TERRY.  Thank you.  And I do appreciate you having this 
hearing, and it will be interesting to hear from the panel regarding 
the Truth in Caller ID Act of 2006.  Needless to say, coming from 
Omaha, Nebraska, where I represent 30,000 people in the telecommunications/tele-services business, I am concerned about how 
this Act may affect those companies and their employees.  Many 
Fortune 500 companies use the tele-services in my hometown and my 
district in lieu of their own call centers and tele-services, so 
when they make an outbound call or an inbound call, they answer it, 
representing their claim, XYZ company.  That is not "spoofing" in my 
mind.  That is not fraudulent.  That is their client and they should 
have a right to be able to speak on behalf of their client.  So 
hopefully there is nothing in the Truth in Caller ID Act that 
prevents legitimate tele-services from doing their job on behalf of 
their clients.  It is not fraudulent. 
	So I think we need to kind of work through the details here, 
and that is why it is important that we have this type of a hearing. 
 And I want to thank our panels for being here today to help us work 
through the issues of what is legitimate, what is fraudulent.  None 
of us want people to be able to fake identities, "spoof," in order 
to make contact.  But on the other hand, we do not want to stop 
legitimate commerce as well. 
	With that, Chairman, I thank you for holding this hearing, 
and I yield back the remainder of my time. 
	MR. UPTON.  I thank the gentleman for being here.  And at 
this point, I make a unanimous consent request that all Members will 
have their opening statements as part of the record.  
	[Additional Statements for the record follow:] 

PREPARED STATEMENT OF THE HON. BARBARA CUBIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF WYOMING

Thank you, Mr. Chairman. 
Just like our hearing on pretexting a few months back, I'm again 
shocked about how people have conceived such a malevolent business 
model that appears to be legal.  The act of "spoofing," or changing, 
one's caller ID information appears to be on the rise, which has 
dangerous ramifications for those who rely on call restrictions to 
protect themselves from estranged spouses or others who may be 
harassing them. 
Now I've learned about a website that not only offers the ability to 
"spoof" one's caller ID, but also offers tools to change your voice 
and record the conversation.  What legitimate business use can one 
imagine for these features? 
We need to make certain that when someone receives a call, they can 
trust the caller ID information is accurate.  That's why I commend 
Chairman Barton for his leadership on this bill and wish to join as 
a cosponsor to ensure the caller ID is truthful. 
  	I yield back the balance of my time. 

PREPARED STATEMENT OF THE HON. PAUL E. GILLMOR, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF OHIO 

Thank you for holding this important hearing.  I also would like to 
commend the full committee chairman, Chairman Barton, on his 
leadership with this important piece of consumer protection legislation. 
	Mr. Chairman, the issue of "Caller ID" Spoofing is not a 
matter to be taken lightly.  Rather, it is an issue critical to 
ensuring the safety and privacy of our constituents.  In a rapidly 
changing telecommunications environment, Chairman Barton's bill is a 
simple and straight-forward way in addressing the need to provide 
accurate caller ID information. 
	As an advocate for strong sex offender laws, I fear that 
erroneous caller ID information may be utilized as another tool for 
predators to locate their prey's location and personal information. 
 Additionally, as a member of the Financial Services Committee, I 
hear all too often about how cases of identity theft have decimated 
an individual's financial wellbeing.  If not prevented, this too 
could become a tool for identity thieves to deprive innocent victims 
of their nest eggs-especially in areas, such as my northwest Ohio 
district, that have a large concentration of elderly residents.  
	Mr. Chairman, this is an important issue that must be 
addressed, and I applaud you, Chairman Barton, and Mr. Engel for not 
allowing it to become lost as we deal with larger, more comprehensive 
telecommunications reform issues.  Finally, I look forward to hearing 
the testimony from today's panel, and to working with you and 
Chairman Barton to see that all of our constituents are properly 
protected from the dangers posed by caller ID spoofing. 

PREPARED STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF MASSACHUSETTS 

Good Morning.  I want to commend Chairman Upton for calling this 
hearing today on legislation addressing "caller ID spoofing". 
"Spoofing" is when a caller masks or changes the caller ID 
information of their call in a way that disguises the true 
origination number of the caller.  In many instances, a call 
recipient may be subject to pre-texting through spoofing, which can 
lead to fraud, personal ID theft, harassment, or otherwise put the 
safety of the call recipient in danger.  It is important that we 
explore and analyze the use of spoofing to commit crimes and 
otherwise harm the public interest.  (We spent time earlier this 
year on legislation addressing these important issues, which 
disappeared into an intelligence-gathering black hole just before 
it reached the House floor, but perhaps it will re-emerge soon.....) 
On the other hand, lest we think that spoofing always has nefarious 
aims, we must recognize that there may be circumstances when a 
person's safety may be put in danger if their true and accurate 
call origination information is disclosed as well. 
What we seek in caller ID policy is balance.  This has been the case 
since we held hearings in the early 1990s on caller ID, where this 
Subcommittee sought to take into account emerging caller ID technology 
in a way that also allowed callers to block their origination number 
on a per call or per line basis.  Technology also allowed call 
recipients to refuse to receive calls by anyone who was blocking 
their caller ID information from going through.  
While I believe the intent of the legislation before us today has a 
noble objective, I do not yet believe it adequately strikes the 
historic balance we have sought to achieve for consumer privacy 
and security.  For instance, Members of Congress often have direct 
lines in their offices.  In order to ensure that such lines do not 
become generally public, and therefore remain useful to us, it may 
be necessary to keep such direct numbers confidential and have the 
out-going caller ID information indicate a different number at 
which our offices can be reached for return calls.  That gives 
the recipient a legitimate phone number to call back, but keeps 
confidential lines private. 
There are many doctors, psychiatrists, lawyers, and other 
professionals who would similarly like to keep direct, confidential 
lines private in this way who have no intention of misleading 
anyone.  In addition, there may be instances, for example when a 
woman at a shelter seeks to reach her children, when spoofing is 
important to safeguard someone's safety.  Moreover, informants to 
law enforcement tip lines or whistleblowers have additional reasons 
for why their calling information should remain private.  We should 
not outlaw any of these practices and I think the legislation needs 
some improvement and clarification in these areas. 
Finally, I don't think the Subcommittee can convene here today and 
discuss spoofing, consumer privacy, and caller ID legislation 
without addressing the elephant in the back of the room. 
We passed a bill addressing consumer phone records unanimously 
through this Committee earlier this Spring after due deliberation 
and public hearings.  That legislation was pulled from the House 
floor apparently because intelligence entities sought changes to 
it.  With the recent revelations about the alleged program at the 
National Security Agency to gather up the phone records of tens 
of millions of Americans, I think this Committee needs to 
investigate those issues in a timely manner as well and I hope 
the Chairman will announce such hearing soon. 
Again, I thank Chairman Upton for calling today's hearing and 
look forward to working with him and our other colleagues on this 
bill as we move forward. 

MR. UPTON.  We have four very good witnesses today: Mr. Tom Navin, 
the Wireline Bureau Chief of the FCC; Ms. Staci Pies, Vice President 
of PointOne Communications in Texas, on behalf of Voice on the Net 
Coalition; Mr. Lance James, Chief Technology Officer of Secure 
Science Corporation; and Mr. Mark Rotenberg, Executive Director of 
Electronic Privacy Information Center here in Washington.  We thank 
you all for being here this morning.  And before I yield the time, 
Mr. Engel has just made it through the threshold for an opening 
statement.  Again, I complemented you on being an original sponsor 
of the bill with Mr. Barton.  I appreciate you being here. 
	MR. ENGEL.  Thank you.  Thank you, Mr. Chairman.  Yes, I am 
a poor substitute for Mr. Markey today, but I want to thank you for 
quickly scheduling this hearing.  I really, as you know, have worked 
really closely with you, and I think you have been an exemplary 
Chairman, and I have no problem saying that publicly and privately 
as well. 
	I support this bill obviously to combat caller ID fraud, 
since I have added my name as the primary co-sponsor.  When we were 
finding out about these things, you and I had had much discussion 
about it as I have with Jim Gordon, and this really seemed like a 
no-brainer, this legislation, that really should be supported by 
everyone in this Congress.  I also strongly support regular 
procedure, our colleagues are due the opportunity to learn about 
the issue as well, and provide their own input.  The bill is a good 
bill.  We need to continue to work to improve it, and I think that 
we will do that, working across party lines. 
	I have been working with my colleagues for years now on 
issues of privacy and identity theft.  On each and every time we 
plug one hole, crafty criminals come up with another way to commit 
fraud.  Recently on television, I was asked how come we cannot stay 
ahead of the curve with getting the bad guys.  And I said, well, you 
know, the problem with this is they have to commit the fraud, and 
then we realize the things that they are doing, and we always sort 
of play catch-up with them.  I have read news reports that criminals 
are using these technologies to get people to give out private 
information that they would never give out, except that they think 
they are receiving a legitimate call from their bank, or a hospital, 
or even a local courthouse, or even Congress.  I have also read about 
our colleague Tim Murphy being a victim in his capacity as a Member 
of Congress, and that I heard that our colleague and committee member 
Heather Wilson has also been a victim. 
	At this point, it became apparent to me that there are people 
who seek to use these technologies to strike at the heart of our 
democracy.  They could well be planning to interfere with elections. 
 That is an assault on the democratic process, obviously.  Leaving 
fake messages that are insulting or incendiary on a public person's 
voice mail that identifies the caller as an elected official or 
candidate for public office can threaten the very nature of our 
electoral process, and we can see how it could be used politically 
to try to change or subvert the electoral process. 
	We have struggled to clean up our campaigns with greater 
disclosure and bans on soft money.  We should not let that hard work 
be destroyed by a few unscrupulous acts.  So the Truth in Caller ID 
Act will give us another tool to use to combat identity theft and 
even election fraud. 
	I thank the Chairman for his attention to this matter, and 
I would like to ask unanimous consent to enter into the record a 
letter from the National Network to End Domestic Violence.  
Protecting victims of domestic violence has been a major issue 
for this Congress, and I agree with them that the Truth in Caller 
ID Act must not cause us to backtrack.  So I ask unanimous consent 
for that. 
	MR. UPTON.  Without objection. 
	[The information follows:] 


	MR. ENGEL.  I thank you, Mr. Chairman.  I thank you for your 
 attention, and look forward to hearing from the witnesses, and yield 
back. 
[The prepared statement of Hon. Eliot Engel follows:] 


PREPARED STATEMENT OF THE HON. ELIOT ENGEL, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF NEW YORK 

Mr. Chairman - 
I want to thank you for quickly scheduling this hearing.  Obviously, 
I support this bill to combat Caller ID fraud - since I have added 
my name as the primary cosponsor. 
But, I also strongly support regular procedure.   Our colleagues are 
due the opportunity to learn about the issue as well and provide 
their own input. 
The bill before us today is a good bill but I believe there is room 
for improvement.  Working together, across party lines, will make 
this a better bill. 
For years now, I have been working with my colleagues on issues of 
privacy and identity theft.  Each and every time we plug one hole, 
crafty criminals come up with another way to commit fraud. 
I've read news reports that criminals are using these technologies 
to get people to give out private information that they would never 
give out except that they think they are receiving a legitimate call 
from their bank or even local court house. 
I also have read about our colleague Tim Murphy being a victim in 
his capacity as a Member of the House.  Then I learned our colleague 
Heather Wilson has also been a victim. 
At that point it became apparent to me that there are people who 
seek to use these technologies to strike at the heart of our democracy. 
 They could well be planning to interfere with elections.  That is an 
assault on the democratic process. 
Leaving fake messages that are insulting or incendiary on a person's 
voicemail that identifies the caller as an elected official or 
candidate for public office threatens the very nature of our 
electoral process.  
We have struggled to clean up our campaigns with greater disclosure 
and bans on soft money.  We should not let that hard work be 
destroyed by a few unscrupulous actors. 

The Truth in Caller ID Act will give us another tool to use to combat 
 identity theft and even election fraud. 
I thank the chairman for his attention to this matter, look forward 
to hearing from the witnesses and yield back. 

	MR. UPTON.  The gentleman yields back.  Again, I thank you 
for your leadership on this issue, and I look forward to working 
with you, as well as with Chairman Barton in moving this legislation 
quickly through our Committee and to the floor.  And with that, I 
recognize the distinguished Chairman of the Full Committee, Mr. 
Barton. 
	CHAIRMAN BARTON.  Thank you, Chairman Upton, for calling 
this hearing today on H.R. 5126, the Truth in Caller ID Act of 2006, 
introduced by myself and Congressman Engel.  This bill is necessary 
to shut down the growing problem of manipulating caller ID 
information.  Caller ID so-called spoofing occurs when a caller 
masquerades as someone else by falsifying the number that appears on 
the recipient's caller ID display. 
Everyone is familiar with the caller ID product that provides to a 
consumer the name and number of who is placing an incoming call. 
Unfortunately, caller ID "spoofing" is yet another tool available to 
criminals to hijack the identities of consumers.  For instance, the 
AARP recently ran a "scam alert" when someone posing to be a 
courthouse employee called a Sterling, Michigan woman claiming that 
she had missed jury duty that week.  The caller threatened that a 
warrant was being issued for her arrest, and then asked to confirm 
her Social Security number to verify her identity.  This scam can 
appear even more real when the con artist uses a caller ID 
"spoofing" product which allows the con to display the name and 
number of the courthouse on the caller ID box. 
	As with other scams, the internet is making caller ID 
"spoofing" even easier.  There are now websites that offer 
subscribers, for a nominal fee, a simple web interface to caller ID 
"spoofing" systems that let them appear to be calling from any number 
they choose.  Some of these web services boast that they do not 
maintain logs, and fail to provide any contact information.  Some 
even offer voice scrambling services, which make the caller sound 
like someone of the opposite sex. 
	Callers do not necessarily need to utilize a "spoofing" 
website to manipulate caller ID information.  Some providers of 
Voice over Internet Protocol, or VoIP, services allow their 
customers to tinker with the caller ID information.  Certainly 
this may not always be done for a deceptive or malicious purpose, 
but it offers those who wish to do harm an easier way to part 
consumers with their money. 
	I understand that the FCC is currently investigating the 
caller ID "spoofing" problem, but I find it hard to believe that 
today, there is no prohibition against sending false or deceptive 
caller ID information.  H.R. 5126, the Truth in Caller ID Act of 
2006, would remedy that problem in short order.  
H.R. 5126 specifically prohibits sending misleading or inaccurate 
caller ID information.  It covers traditional telephone service, as 
well as VoIP calls, and provides a specific exemption for authorized 
law enforcement actions.  I understand that there may be a need for 
additional exemptions, and I am anxious to hear from our witnesses 
how the exemption issue should be handled as we move toward a 
markup. 
	Consumers use caller ID services to protect themselves from 
unwanted calls and contact, including from those who may want to do 
them harm.  They should be able to rely on the caller ID information 
coming to them on a caller ID box, and H.R. 5126 will do just that. 
	I was one of the Congressmen that, in the mid-'90s, made sure 
that caller ID was legal.  There were members of this Committee who 
did not wish to make caller ID a legal service.  Thankfully, the 
majority of the committee, then and now, supports caller ID.  I 
think the majority of this committee, with Mr. Engel's leadership, 
is going to make sure that we make caller ID exactly what we 
intended--that is a truthful identifier of who it is that is calling 
your phone number. 
	Thank you, Chairman Upton, for holding this hearing today, 
and I yield back the balance of my time. 
	[The prepared statement of Hon. Joe Barton follows:] 

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, COMMITTEE ON ENERGY AND COMMERCE 

Thank you for calling this hearing today on H.R. 5126, the "Truth in 
Caller ID Act of 2006," introduced by myself and Rep. Engel.  This 
bill is necessary to shut down the growing problem of manipulating 
caller ID information.  Caller ID "spoofing" occurs when a caller 
masquerades as someone else by falsifying the number that appears 
on the recipient's caller ID display. 
Everyone is familiar with the caller ID product that provides to 
a consumer the name and number of who is placing an incoming call. 
Unfortunately, caller ID spoofing is yet another tool available to 
criminals to hijack the identity of consumers.  For instance, the 
AARP recently ran a "scam alert" when someone posing to be a 
courthouse employee called a Sterling, Michigan woman claiming that 
she had missed jury duty that week.  The caller threatened that a 
warrant was being issued for her arrest and then asked her to 
confirm her Social Security number, to verify her identity.  This 
scam can appear even more real when the con artist uses a caller 
ID "spoofing" product which allows the con to display the name and 
number of the courthouse on the caller ID box. 
As with other scams, the Internet is making Caller ID spoofing even 
easier.  There are now websites that offer subscribers, for a 
nominal fee, a simple web interface to caller ID spoofing systems 
that lets them appear to be calling from any number they choose.  
Some of these web services boast that they do not maintain logs and 
fail to provide any contact information.  Some even offer voice 
scrambling services which make the caller sound like someone of the 
opposite sex. 
But a con artist does not necessarily need to utilize a spoofing 
website to manipulate caller ID information.  Some providers of 
voice over Internet-Protocol, or VoIP, services allow their customers 
to tinker with the caller ID information.  Certainly, this may not 
always be done for a deceptive or malicious purpose, but it offers 
those who wish to do harm an easier way to part consumers with their 
money.	
	I understand the FCC is currently investigating the caller 
ID spoofing problem, but frankly, I find it hard to believe that 
today, there is no prohibition against sending false or deceptive 
caller ID information.  H.R. 5126, the "Truth in Caller ID Act of 
2006" remedies this problem. 
H.R. 5126 specifically prohibits sending misleading or inaccurate 
caller ID information.  It covers traditional telephone calls as well 
as VoIP calls, and provides a specific exemption for authorized law 
enforcement actions.  I understand that there may be a need for 
additional exemptions, and I'm anxious to hear from our witnesses how 
the exemption issue should be handled as we move toward markup. 
Consumers use caller ID services to protect themselves from unwanted 
calls and contact, including from those who may want to do them harm. 
 They should be able to rely on the caller ID information coming to 
them on a caller ID box, and H.R. 5126 will do just that. 
I want to thank the Chairman Upton for holding this hearing today 
and I yield back my time. 

	MR. UPTON.  All right.  I thank my Chairman, not only for a 
statement, but also for moving the caller ID legislation a number of 
years ago.  There is nothing, and particularly at dinnertime when 
somebody calls, to know exactly who it is, so that we as consumers 
know whether we should take that call or whether we are going to 
have cold food for dinner.  It is very important.  But with that, 
your statements are made part of the record, and we would like you 
to try and keep your remarks to not more than five minutes, at which 
point, when you are completed--all four of you--we will do questions. 
 Again, thank you for your travel to get here promptly on time.  
Mr. Navin, we will start with you. 

STATEMENTS OF TOM NAVIN, WIRELINE BUREAU CHIEF, FEDERAL COMMUNICATIONS 
COMMISSION; STACI PIES, VICE PRESIDENT, POINT ONE COMMUNICATIONS, ON 
BEHALF OF VOICE ON THE NET (VON) COALITION; LANCE JAMES, CHIEF 
TECHNOLOGY OFFICER, SECURE SCIENCE CORPORATION; AND MARC ROTENBERG, 
EXECUTIVE DIRECTOR, ELECTRONIC PRIVACY INFORMATION CENTER 



start here

MR. NAVIN.  Good morning, Chairman Upton and members of the 
subcommittee.   Thank you for the opportunity to speak about the 
problem of caller identification, or caller ID, "spoofing". 
	As we have heard, caller ID services let customers identify 
who is calling them by displaying the caller's telephone number, or 
other information such as a name or business name, on the customer's 
equipment before the customer picks up the phone.  Caller ID 
"spoofing" refers to a practice in which the caller ID information 
transmitted with the telephone call is manipulated in a way that 
misleads the call recipient about the identity of the caller.  The 
Commission is deeply concerned about reports that caller ID 
information is being manipulated for fraudulent or other deceptive 
purposes, and about the impact of those practices on the public trust 
and confidence in the telecommunications industry.  We also are 
particularly concerned about how this practice may affect the public 
safety and law enforcement communities. 
	The Commission addressed caller ID on the Public Switched 
Telephone Network, or PSTN, in 1995, with Commission Rule 64.1601, 
which generally requires all carriers using the Signaling System 7, 
or SS7 protocol, to transmit the calling party number associated 
with an interstate call to interconnecting carriers.  This same 
Commission rule also requires telemarketers to transmit accurate 
caller ID information. 
	The development of Internet and IP technologies has made 
caller ID "spoofing" easier than it used to be.  Now, entities 
using IP technology can generate false calling party information 
and pass it into the PTSN, via SS7, with harmful real-life 
consequences in such areas as public safety.  For example, as we 
have heard this morning, the Newark Star Ledger reported that 
police in New Brunswick, New Jersey, shut down one city 
neighborhood for hours, evacuating buildings and closing streets, 
as a SWAT team surrounded an apartment house.  Police had received 
a call from a girl saying she had been handcuffed and raped in an 
apartment when the call was, in fact, a hoax.  This massive police 
deployment occurred because the caller ID had been "spoofed" to 
make the call appear to come from the apartment.  Hoaxes like these 
divert our local public safety resources away from where they are 
so desperately needed, responding to real emergencies and real 
threats to our homeland security. 
	I note that the Committee is considering imposing 
restrictions on Voice over Internet Protocol, or VoIP providers, 
that facilitate hoaxes and other harmful practices through caller 
ID "spoofing".  As you know, there are many varieties of VoIP, and 
the definition of VoIP in this bill, as well as other proposed 
legislation, could be interpreted to exclude many of them from the 
reach of the FCC.  As the House of Representatives considers 
legislation affecting VoIP, it should be aware that a restrictive 
definition of VoIP here, or in other legislation, might establish a 
statutory precedent that would restrict the Commission's authority to 
assist public safety and law enforcement in other contexts.  
	At present, my colleagues in the Commission's enforcement 
bureau are actively pursuing the issue of caller ID "spoofing".  
They have issued letters of inquiry or subpoenas to several entities 
who are apparently engaged in marketing and selling caller ID "spoofing" 
services to customers.  The enforcement bureau continues to gather and 
analyze information about these companies' practices, their networks, 
their businesses, and their customers, and other germane information, 
as well as to analyze enforcement options, some of which may be 
limited to entities that are not regulated by the Commission.  In 
addition, the enforcement bureau has met with carriers, assembled 
internal technical experts to address the problem, and begun 
coordinating with the Federal Trade Commission regarding its efforts 
to address this problem. 
	In conclusion, the intentional manipulation of caller ID 
information, especially for the purposes of fraud or deception, 
is a troubling development in the telecommunications industry.  
As Chief of the Wireline Competition Bureau at the FCC, I share 
your concern about this practice.  I look forward to working with 
this Committee, other members of Congress, Chairman Barton, and 
the Commission, to ensure the public maintains its confidence in 
the telecommunications industry.  Thank you for the opportunity 
to speak here today. 
	[The prepared statement of Thomas J. Navin follows:] 


PREPARED STATEMENT OF THOMAS J. NAVIN, WIRELINE BUREAU CHIEF, FEDERAL COMMUNICATIONS COMMISSION 

Good morning Chairman Upton, Ranking Member Markey and members of the 
Subcommittee.  Thank you for the opportunity to speak about the problem 
of caller identification or "caller ID" spoofing.   
As you know, caller ID services let customers identify who is calling 
them by displaying the caller's telephone number or other information 
- such as a name or business name - on the customer's equipment 
before the customer picks up the phone.  "Caller ID spoofing" refers 
to a practice in which the caller ID information transmitted with a 
telephone call is manipulated in a way that misleads the call 
recipient about the identity of the caller.  The use of Internet 
technology to make phone calls has apparently made caller ID spoofing 
even easier.  The Commission is deeply concerned about reports that 
caller ID information is being manipulated for fraudulent or other 
deceptive purposes and the impact of those practices on the public 
trust and confidence in the telecommunications industry.  We are 
concerned about how this practice may affect the public safety and 
law enforcement communities in particular. 
In my testimony, I will first provide a brief technical background 
on caller ID spoofing.  Then, I will describe the Commission's 
rules addressing caller ID services and the steps the FCC is 
taking to make sure that providers are fully meeting their 
obligations under the Communications Act and the Commission's 
rules and orders. 
As a technical matter, caller ID spoofing happens by manipulating 
the data elements that travel with a phone call. Phone calls on the 
public switched telephone network, or PSTN, are routed to their 
destinations by means of a specialized protocol called the 
Signaling System 7, or SS7. Among other things, SS7 conveys 
information with a call such as the telephone number of the 
caller.  The SS7 information for a call is provided by the carrier 
that the caller uses to place the call. Caller ID, then, displays 
that caller's number to the called party.  Caller ID spoofing is 
accomplished by manipulating the SS7 information associated with 
the call. 
The Commission addressed caller ID on the PSTN in 1995 with rule 
64.1601, which generally requires all carriers using SS7 to 
transmit the calling party number associated with an interstate 
call to interconnecting carriers.  The same Commission rule also 
requires telemarketers to transmit accurate caller ID information. 
The development of Internet and IP technologies has made caller 
ID spoofing easier than it used to be.  Now, entities using IP 
technology can generate false calling party information and pass 
it into the PSTN via SS7. In one particularly harmful way, caller 
ID spoofing threatens our public safety. Spoofers can fabricate 
emergency calls and cause local law enforcement and public safety 
agencies to deploy their resources needlessly.  The Newark 
Star-Ledger reported that police in New Brunswick, New Jersey shut 
down one city neighborhood for hours, evacuating buildings and 
closing streets as a SWAT team surrounded an apartment house.  
Police had received a call from a girl saying she had been 
handcuffed and raped in the apartment, when the call was a 
hoax. Caller ID had been spoofed to make the call appear to 
come from the apartment.  Hoaxes like these divert our local 
public safety resources away from where they are so desperately 
needed - responding to real emergencies and real threats to our 
homeland security.  
My colleagues in the Commission's Enforcement Bureau are actively 
pursuing the issue of caller ID spoofing. They have issued letters 
of inquiry or subpoenas to several entities who are apparently 
engaged in marketing and selling caller ID spoofing services to 
customers.  The Enforcement Bureau continues to gather and analyze 
information about these companies' practices, their networks, their 
businesses, their customers, and other germane information, as well 
as analyze enforcement options, some of which may be limited as to 
entities that are not regulated by the Commission. 
In addition, the Enforcement Bureau has met with carriers, assembled 
internal technical experts to address the problem, and begun 
coordinating with the Federal Trade Commission regarding its efforts 
to address this problem. 
Finally, I note that the Committee is considering imposing 
restrictions on voice over Internet protocol, or VoIP providers 
that facilitate caller ID spoofing.  As you know, there are many 
varieties of VoIP, and the definition of VoIP in this bill, as well 
as other proposed legislation, could be interpreted to exclude many of 
them from the reach of the Commission.  As the House of 
Representatives considers legislation affecting VoIP, it should be 
aware that a restrictive definition of VoIP here or in other 
legislation might establish a statutory precedent that would restrict 
the Commission's authority to protect life and property in both the 
public safety and law enforcement contexts. 
In conclusion, the intentional manipulation of caller ID information, 
especially for the purposes of fraud or deception, is a troubling 
development in the telecommunications industry.  As chief of the Wireline 
Competition Bureau at the FCC, I share your concern about this practice. 
I look forward to working with this Committee, other Members of Congress, 
Chairman Martin and the Commission to ensure the public maintains its 
confidence in the telecommunications industry. Thank you for the 
opportunity to speak with you today. 

MR. UPTON.  Thank you.  Ms. Pies? 
MS. PIES.  Thank you, Chairman Upton, Ranking Member Markey, and 
members of the subcommittee.  My name is Staci Pies.  I am Vice 
President of Governmental and Regulatory Affairs for PointOne, a 
VoIP provider, and President of the Voice on the Net Coalition, 
the VON Coalition, which is the voice of the VoIP industry.  On 
behalf of the VON Coalition, I thank the Subcommittee for this 
opportunity to testify about this important issue. 
	Before I address caller ID in particular, I would like to 
commend Chairman Barton for his leadership in the committee and 
subcommittee for taking action in the recent COPE bill to accelerate 
the availability of VoIP, and the ability to deliver E911 information 
along with 911 calls.  Particularly with respect to members, the 
creation of a national emergency routing number administration will 
assure that VoIP providers can obtain necessary pseudo-numbers in a 
timely fashion. 
	VoIP providers who have made real strides in leveraging the 
power of caller ID to provide innovative services to consumers 
support this committee's effort to protect the integrity of caller 
ID functionality.  We fully agree that strong action must be taken 
against those that intentionally "spoof" caller ID with the intent 
to commit fraud, deceive, harass, or otherwise create threats to 
life and limb, as mentioned by Mr. Engel.  Congress is right to 
focus its intention on those who would do so. 
	VoIP is burgeoning in popularity with consumers and businesses 
because it can do what plain old telephone service does, but often 
much, much more. VoIP allows consumers to take control over their 
communications experience, to manage how they use those services, and 
to decide when and where they want to receive calls.  With VoIP, I 
can direct certain calls to my work phone and others to my home or 
mobile phone.  I can screen calls and designate some calls at 
specific times of day, for instance, during the family dinner hour, 
to be sent straight to voice mail.  Some VoIP services even flash 
caller ID information on the TV screen, making it an easier decision 
to ignore the call in favor of C-SPAN.  VoIP providers allow 
consumers to integrate technologies in innovative ways, to bring the 
power and potential of the Internet to voice communications. 
	Many of the great benefits of VoIP to consumers and business 
users depend on accurate and non-misleading identification of the 
calling party.  Businesses that use caller ID to call up a customer's 
account record so that it is immediately available to the customer 
service representative will not find the record very useful if it is 
the wrong record because the caller ID has been "spoofed".  At the 
same time, VoIP often allows users greater control over their 
personal privacy by allowing them to block the caller ID with a click 
of a mouse. 
	As Congress addresses deceptive "spoofing," though, we urge 
you to keep in mind that in some legitimate instances, it can be 
necessary or desirable to change caller ID information where the 
purpose is not to mislead or deceive, or where the modification is 
necessary for a public purpose.  The bill recognizes, for example, 
that law enforcement may need to mask the true identity of an 
originating telephone number.  This is not the only legitimate need 
to change caller ID information. 
	I would like to share five examples: 
	As referenced by Mr. Terry, the FCC has created specific rules 
regarding what kind of caller ID information telemarketers should 
send, in order to empower consumers to take steps to protect their 
privacy.  Barring any change to calling ID information would prohibit 
compliance with this FCC rule. 
	Second, one of the benefits of VoIP is that it can help a 
consumer better protect her own privacy and manage which of her personal 
information she presents to the world, irrespective of which 
communications  device she picks up to initiate a call.  Calls for 
different purposes, personal versus business, may merit different 
telephonic return addresses, as one might do with ordinary mail.  
This is not meant, however, to sanction masquerading as another.  
	Third, there are also situations in which caller ID 
information can endanger individual safety.  Of course, as mentioned 
this morning, the classic situation is battered spouse.  In some 
instances, blocking the delivery of caller ID information might be 
sufficient, but any legislation should be careful about presuming 
that blocking will always be adequate. 
	A fourth example is that in some circumstances, such as 
with forwarded calls, caller ID information needs to be altered to 
ensure that the original calling party's number is transmitted as 
the caller ID information rather than an intermediate number. 
	And, finally, as I referenced at the beginning of my 
remarks, for E911 systems, pseudo-numbers need to be inserted and 
used, as this Committee has recognized in the COPE bill. 
	I would like to close with three additional thoughts.  First, 
that "spoofing" of caller ID is not new.  Tools have been widely 
available for years to "spoof" caller ID on traditional networks.  
As Tom mentioned, the Commission has already addressed these issues. 
 One website even allows the ability to download "spoofing" software 
from the Internet, and then you can just use a common tape recorder 
to "spoof" the caller ID. 
	Second, fighting misleading and deceptive changes in caller 
ID is only part of the solution.  Companies handling sensitive 
information must also make sure they are handling that information 
with care. 
	And third, misleading people through the misuse of caller ID, 
whether for a prank, or scam, or worse, is unacceptable.  This 
Committee is right to focus on those who intend to mislead.  At the 
same time though, legislation should not impose liability on 
traditional carriers or VoIP service providers who merely transmit 
what may turn out to be altered caller ID information.  When good 
technology is used for bad purposes, we would like to make sure that 
it is the bad use of the technology, not the unknowing technology 
itself which carries the burden. 
	In focusing on those few people who would abuse caller ID 
technology, Congress can address the very real problem of "spoofing" 
effectively, in a cost-efficient manner that protects the proper use 
of this technology.  Together, with this committee's previous efforts 
to enable consumers to take advantage of VoIP benefits, we believe 
VoIP is in position to help make communicating more affordable, 
businesses more productive, jobs more plentiful, the Internet more 
valuable, and Americans more safe and secure. 
	Thank you very much.  I am happy to answer any questions I 
can. 
	[The prepared statement of Staci Pies follows:] 

PREPARED STATEMENT OF STACI PIES, VICE PRESIDENT, POINTONE 
COMMUNICATIONS, ON BEHALF OF VOICE OF THE NET (VON) COALITION 

Thank you, Chairman Upton, Ranking Member Markey, and members of the 
Subcommittee.  My name is Staci Pies.  I am Vice President, 
Governmental and Regulatory Affairs, of Point One, a VoIP provider, 
and President of the Voice on The Net or VON Coalition - the voice for 
the VoIP industry.  On behalf of the VON Coalition, I thank the 
Subcommittee for the opportunity to testify about this important issue. 
	Before I address caller ID in particular, I would like to 
commend the Committee and Subcommittee for taking action in the recent 
COPE bill to accelerate the ability of VoIP to deliver E911 information 
along with 911 calls.  Those provisions, along with what I hope will 
be a liability provision that can be adopted when the bill comes before 
the full House, help ensure that VoIP providers can accelerate E911 
solutions through  access to the necessary facilities, databases and 
numbers  required to deliver E911.  Particularly with respect to 
numbers, the creation of a national emergency routing number 
administrator will ensure that VoIP providers can obtain necessary 
pseudo-ANI numbers in a timely fashion.  Leaders from this committee 
have written to the FCC suggesting they create such an administrator, 
and so have standards groups, but to date the FCC has unfortunately 
not done so.  That makes it important that this committee adopt E911 
legislation this year. 
	VoIP is burgeoning in popularity with consumers because it 
can do what Plain Old Telephone Service does - and often much much 
more.  VoIP allows consumers to take control over their communications 
experience, to manage how they use those services and to decide when 
and where they want to receive calls.  With VoIP, I can direct certain 
calls to my work phone, and others to my home or mobile phone.  I can 
specify in what order I want my devices to be rung.  I can screen 
calls and designate some calls at specific times of the day (for 
instance, during the family dinner hour) to be sent straight to 
voice mail.  Some VoIP services even flash caller ID information on 
the TV screen, making it an easy decision to ignore the call in 
favor of . . . CSPAN.  VoIP allows consumers to integrate 
technologies in innovative ways - it allows them to integrate voice 
mail, text messages, and voice services; to bring the power and 
potential of the Internet to voice communications. 
	These Internet based voice advances are giving consumers new 
choices, better prices, and advanced new features.  
Many of the great benefits of VoIP to consumers and business users 
depend on accurate and non-misleading identification of the calling 
party.  If I program my VoIP service to ensure that calls from my 
son's school are simultaneously rung on all of my phones, I don't 
want to answer it and find out that some telemarketer has spoofed 
the number to fool me into believing it is a priority call.  And 
businesses that use caller ID to call up a customer's account record 
so that it is immediately available to the customer service 
representative won't find the record very useful if it is the wrong 
record because the caller ID has been spoofed.  To protect the 
usefulness of their services, VoIP providers have a strong interest 
in having Caller ID be accurate and non-misleading.  At the same 
time, VoIP often also allows users greater control over their 
personal privacy by allowing them to block their caller-ID with the 
click of a mouse.   
	Moreover, we fully agree that strong action must be taken 
against those that intentionally spoof Caller ID with the intent to 
commit fraud, deceive, harass or otherwise create threats to life 
and limb.  Media reports about spoofers calling police and drawing 
out SWAT teams are inexcusable and potentially life threatening.  
A stalker spoofing Caller ID to harass victims, or identity thieves 
pretending to be their victims are things every American should 
care about.   Spoofing to deceive, defraud, or harass cannot and 
should not ever be condoned or tolerated.  Congress is right to 
focus its attention on those who would do so. 
	As Congress addresses deceptive spoofing, though, we urge 
you to keep in mind that in some legitimate instances it can be 
necessary or desirable to change caller ID information - where the 
purpose is not to mislead or deceive, or where the modification is 
necessary for a public purpose.  The bill recognizes, for example, 
that law enforcement may need to mask the true identity of an 
originating telephone number.  This is not the only legitimate need 
to change caller id information.  I'd like to share five examples: 
* First, the FCC has created specific rules regarding what kind of 
caller ID information telemarketers should send.  Telemarketers are 
required to transmit as caller ID a number to which a consumer can 
make a do-not-call request, rather than the telephone number from 
which the call is placed.  The FCC did so deliberately in order to 
empower consumers to take steps to protect their privacy.  Barring 
any change to caller ID information could prohibit compliance with 
this FCC rule. 
 Second, one of the benefits of VoIP is that it can help a consumer 
better protect her own privacy and manage which of her personal 
information she presents to the world, irrespective of which 
communications device she picks up to initiate a call.  Consumers 
may want to direct return calls to a home or business landline, 
rather than a wireless number, for example.  Calls for different 
purposes (personal versus business) may merit different telephonic 
return addresses, as one might do with ordinary mail.  This is not 
meant, however, to sanction masquerading as another.  
  Third, there are also some situations in which caller ID 
information can endanger individual safety.  The classic situation 
is the battered spouse.  In some instances, blocking the delivery 
of caller ID information might be sufficient. But any legislation 
should be careful about presuming that blocking will always be 
adequate.  
  A fourth example is that, in some circumstances, such as with 
forwarded calls, caller ID information needs to be altered to ensure 
that the original calling party's telephone number is transmitted as 
caller ID, rather than an intermediate number. 
  And finally, as I mentioned at the beginning of my remarks, for 
E911 systems pseudo ANIs need to be inserted and used as this 
 committee has recognized in the COPE bill. 
I'd like to close with three additional thoughts.  First, spoofing 
of Caller ID is not new.  Tools have been widely available for years 
to spoof Caller ID on traditional networks.  One website offers the 
ability to download spoofing software from the Internet which then 
allows a common tape recorder to spoof caller ID. 
Second, fighting misleading and deceptive changes in Caller ID is 
only part of the solution.  Companies handling sensitive customer 
information must also make sure they are handling that information 
with care.  While Caller ID can help a business retrieve a 
customer's account record, as long as Caller ID can technically be 
spoofed (which will be the case even with new legislation) the 
business needs to handle disclosure of those records with the utmost 
care - making consumer privacy their top priority. 
	Third, misleading people through the misuse of caller ID, 
whether for a prank, a scam, or worse, is unacceptable.  This 
Committee is right to focus on those who intend to mislead.  At the 
same time, though, legislation should not impose liability on 
traditional carriers and VoIP services providers who merely transmit 
what may turn out to be altered caller ID information When good 
technology is used for bad purposes we'd like to make sure it's the 
bad use of the technology, not the unknowing technology itself, 
which carries the burden.  Networks and network service providers 
may be unable and should not be required to become "content police" 
or to discern legitimate and illegitimate uses of network services.  
Instead, service providers are best able to assist in the efforts to 
fight spoofing by keeping accurate records and making those records 
available as appropriate to proper authorities.  In focusing on 
those few people who would abuse caller ID technology, Congress can 
address the very real problem of spoofing effectively, in a cost- 
efficient manner that protects the proper use of this technology. 
VoIP service providers, who have made real strides in leveraging 
the power of Caller ID to provide innovative services to consumers, 
fully support this Committee's efforts to protect the integrity of 
caller ID functionality.  Together with this committee's previous 
efforts to enable consumers to take advantage of VoIP benefits, we 
believe VoIP is positioned to help make communicating more 
affordable, businesses more productive, jobs more plentiful, the 
Internet more valuable, and Americans more safe and secure. 
Thank you very much.  I am happy to answer any questions I can. 

	MR. UPTON.  Thank you.  Mr. James?
	MR. JAMES.  Good morning.
	MR. UPTON.  That button.
MR. JAMES.  Good morning, Mr. Chairman, Mr. Engel, and other members 
of the committee.  I want to thank you for giving me the opportunity 
to speak on this topic today, a very important issue. 
	As one of the founders of Secure Science Corporation, an 
Internet security and research company, I personally witness the 
extent to which the abuse and misuse of Caller ID can have.  In 
August of 2004, our investigation team discovered that two of the 
Nation's largest telecommunications providers, T-Mobil and Verizon, 
were vulnerable to a technique known as caller ID "spoofing".  This 
technique is entirely reliant upon the manipulation of caller ID to 
be successful and enables the attacker's access to individual 
customer's voicemails without using a PIN code, violating both 
customer privacy and authentication protocols to cellular and 
land-line voicemail networks.  
Similar intrusions, also known as exploits, include unauthorized 
termination of customer accounts, anonymous automatic phone SPAM, 
and the potential to gain full administrative control over a major 
telecommunications network that serves both businesses and 
residential phone lines.  This last possibility is one of the 
greatest concerns in conjunction with the inappropriate and unlawful 
uses of caller ID and could even be viewed as a threat to national 
security in much the same way as the destabilization of a utilities 
plant or traffic control station could be. 
	Other exploits employing caller ID "spoofing" have been 
used by criminals who con unsuspecting victims out of money and in 
many cases their identity.  These individuals are titled as phishers 
and the activity is phishing, spelled with a p-h.  This activity 
involves the utilization of information gained illegally by breaking 
into a potential victim's voice mail account.  This in turn allows 
the phishers to further victimize customers by using, for example, 
billing information to steal identities and garner even more 
personal information from other sources.  Conversely, phishers will 
use caller ID "spoofing" in order to pose as a victim's bank and 
phish the account via phone.  This same method is also used to lure 
wire transfer delivery services, such as Western Union, into 
authorizing fraudulent transfers over the phone.  Additionally, 
phishers will verify their access to the stolen accounts by using the 
victim's contact numbers in an attempt to validate account 
availability and amounts by calling the banks themselves and 
"spoofing" the caller ID as the user of the account. 
	Because of the level and quantity of illegal activities 
participated in by phishers, anonymity is one of their primary 
objectives.  Caller ID "spoofing" enables them not only to communicate 
covertly with one another, but also provides them with an advantage 
against law enforcement agencies.  As a direct result, the phishers 
continue their operations all the while evading subpoena attempts. 
	The aforementioned instances are just some of the many ways 
in which the fraudulent uses of caller ID are being employed today.  
Our company's research alone demonstrates that more than 75 percent 
of the transactions and/or "spoofed" calls made on providers' 
networks were with mal-intent.  This was actually conducted by--we 
work a lot with Anti-Fraud, with covert calling web services out 
there--companies that do caller ID "spoofing".  And we basically help 
them try to eliminate the fraud.  But we are seeing about 75 percent 
of the activity is actually fraudulent. 
	Despite the dark side of caller ID "spoofing," there are very 
tangible benefits associated with this technique when used in a 
responsible manner.  Secure Science Corporation is often called upon 
to assist companies who provided automated caller ID "spoofing" 
service to detect and prevent fraudulent activity on their network.  
And in order to do this successfully, it is not unusual for us to aid 
law enforcement by using caller ID "spoofing" techniques to track 
down these perpetrators.  By accessing the very information they 
attempt to conceal, phishers and other criminals are not successful 
in their evasive actions, thus increasing the amount of successful 
investigations with law enforcement involvement brought forth against 
them.  We use a technique that actually allows us to track down the 
phone numbers they are using.  And we have to use a caller ID 
manipulation technique to do these type of techniques, so there are 
some very legitimate applications, especially in law enforcement. 
	One of the most common reasons for the manipulation of caller 
ID information is executed by the vast majority of Voice over IP 
companies, as well as those businesses which use private branch 
exchanges, better known as PBXs.  In this case they appropriately 
utilize the technique so as to provide their telephone communications 
user with a viable and fiscally prudent alternative to traditional 
long distance services.  One such legitimate caller ID "spoofing" is 
the transmission of the caller's home telephone number on a Voice 
over IP call. 
	With respect to the positive and welcomed uses affiliated with 
caller ID "spoofing" such as research, investigative tactics, and 
public services, it is my recommendation as a representative of the 
information security community that the exemption to this bill be 
either expanded to include the above mentioned uses, or that the term 
"illicit" be added to the general wording of the bill.  This way, the 
legitimate academic and commercial entities and the law enforcement 
agencies they aid, will not unduly suffer the effects of this 
proposed Act. 
	The implementation of the Truth in Caller ID Act of 2006 will 
without a doubt prove to be instrumental in the fight against the 
criminal activities in, and the abuse of, our Nation's telephone 
communication systems.  By recognizing this bill as an amendment to 
the Communications Act of 1934, our government will continue to send 
the message of intolerance towards those who seek to take advantage 
of burgeoning technologies for illegal and/or unethical use .
	Thank you very much. 
	[The prepared statement of Lance James follows:] 

PREPARED STATEMENT OF LANCE JAMES, CHIEF TECHNOLOGY OFFICER, SECURE 
SCIENCE CORPORATION 

The "Truth in Caller ID Act of 2006" is being introduced with the goal 
of preventing criminal activities and/or the obstruction of justice 
with respect to the manipulation of caller identification information. 
As one of the founders of Secure Science Corporation, an Internet 
security and research company, I have personally witnessed the extent 
to which the abuse and misuse of caller ID can have. In August of 
2004, our investigation team discovered that two of the Nation's 
largest telecommunications providers (T-mobile, Verizon) were 
vulnerable to a technique known as "Caller-ID Spoofing". This 
technique is entirely reliant upon the manipulation of Caller ID to 
be successful and enables the attacker access to individual 
customer's voicemail without using a PIN code, violating both 
customer privacy and authentication protocols to cellular and 
land-line voice mail networks. Similar intrusions, also known as 
"exploits", include unauthorized termination of customer accounts, 
anonymous automatic phone SPAM, and the potential to gain full 
administrative control over a major telecommunications network that 
serves both business and residential phone lines. This last 
possibility is one of the greatest concerns in conjunction with the 
inappropriate and unlawful uses of caller ID and could even be viewed 
as a threat to national security in much the same way as the 
destabilization of a utilities plant or traffic control station 
would be.  
Other exploits employing Caller ID Spoofing have been used by 
criminals who con unsuspecting victims out of money and in many 
cases their identity (also called "Phishers" and their methods 
"Phishing"). This activity involves the utilization of information 
gained illegally by breaking into a potential victim's voice mail 
account. This in turn allows the phishers to further victimize 
customers by using, for example, billing information to steal 
identities and garner even more personal information from other 
sources. Conversely, Phishers will use Caller ID Spoofing in order 
to pose as a victim's bank and phish the account via phone. This 
same method is also used to lure wire transfer delivery services 
(such as Western Union) into authorizing fraudulent transfers over 
the phone. Additionally, Phishers will verify their access to the 
stolen accounts by using the victim's contact numbers in an attempt 
to validate account availability and amounts. 
Because of the level and quantity of illegal activities participated 
in by Phishers, anonymity is one of their primary objectives. Caller 
ID Spoofing enables them to not only communicate covertly with one 
another, but also provides them with an advantage against law 
enforcement agencies. As a direct result, the Phishers continue 
their operations all the while evading subpoena attempts. 
The aforementioned instances are just some of the many ways in 
which the fraudulent uses of Caller ID are being employed today. 
Our company's research alone demonstrates that more than 75% of the 
transactions and/or spoofed calls made on providers' networks were 
with mal-intent. 
Despite the dark side of Caller ID Spoofing, there are very tangible 
benefits associated with this technique when used in a responsible 
manner. Secure Science Corporation is often called upon to assist 
companies who provide automated Caller ID Spoofing services to detect 
and prevent fraudulent activity on their network. In order to do this 
successfully, it is not unusual for us to aid law enforcement by using 
Caller-ID Spoofing techniques to track down these perpetrators. 
By accessing the very information they attempt to conceal, Phishers 
and other such criminals are not successful in their evasive actions, 
thus increasing the amount of successful investigations with law 
enforcement involvement brought forth against them.  
One of the most common reasons for the manipulation of Caller ID 
information is executed by the vast majority of Voice-Over-IP 
companies, as well as those businesses which use Private Branch 
Exchanges, better known as PBX's. In this case they appropriately 
utilize the technique so as to provide their telephone 
communications users with a viable and fiscally prudent alternative 
to traditional long distance services. One such legitimate use of 
Caller ID Spoofing is the transmission of the caller's home telephone 
number on a Voice-over-IP call".  
With respect to the positive and welcomed uses affiliated with 
"Caller ID Spoofing" such as research, investigative tactics, and 
public services, it is my recommendation as a representative of the 
information security community that the exemption to this Bill be 
either expanded to include the above mentioned uses, or that the term 
"illicit" be added to the general wording of the Bill. This way, the 
legitimate academic and commercial entities (and the law enforcement 
agencies they aid) will not unduly suffer the effects of this proposed 
Act. 
The implementation of "The Truth in Caller ID Act of 2006" will 
without a doubt prove to be instrumental in the fight against the 
criminal activities in, and the abuse of, our nation's telephone 
communication systems. By recognizing this Bill as an amendment to 
the "Communications Act of 1934", our government will continue to 
send the message of intolerance towards those who seek to take 
advantage of burgeoning technologies for illegal and/or unethical 
use.  

Lance James 
Chief Technology Officer 
Secure Science Corporation 

	MR. UPTON.  Five seconds to spare.  You did very well.  
Mr. Rotenberg MR. ROTENBERG.  Thank you very much, Chairman Upton, 
Mr. Engel, members of the subcommittee.  My name is Marc Rotenberg. 
 I am Director of the Electronic Privacy Information Center.  
We focus on emerging privacy issues.  We appreciate the opportunity 
to be before the subcommittee again and to testify on the Truth in 
Caller ID Act, H.R. 5126. 
	From our perspective, there are two different privacy 
interests at issue here.  The first, of course, concerns the privacy 
interest of the person's telephone number who would be disclosed to 
the call recipient.  And there are many legitimate circumstances 
under which a person would rightfully not want to have their 
telephone number disclosed.  Both Ms. Pies and Mr. James have 
described instances in their industry and their research where they 
would also see customers who would not provide their own telephone 
number or would, for legitimate business purposes, provide someone 
else's telephone number.  But of course, there are also 
circumstances under which providing a number that is not your own 
can lead to fraudulent activity, can place public safety at risk.  
And so we certainly understand the intent of the bill's sponsors to 
ensure that misrepresenting a person's telephone number does not 
enable any type of conduct that is criminal or puts the public at 
risk. 
	This debate is very similar, in fact, to the debate that took 
 place when the caller ID service was originally offered.  And as you 
may recall at that time, Congress worked with the FCC and the State 
public utility commissions to establish some privacy safeguards, 
such as per call blocking or per line blocking, to ensure that people 
who have a legitimate reason to withhold the disclosure of their 
telephone number would be protected. 
	So our view regarding this legislation is that it is 
appropriate to protect both privacy interests.  And the way to do 
that would be to distinguish between the legitimate and illegitimate 
types of "spoofing" that might occur.  And I think the simple way 
that you could accomplish this goal would be to add an intent 
requirement, so that you would make the illegitimate "spoofing" of a 
telephone number, that which occurs with the intent to defraud or 
harass the call recipient.  I think that would cover virtually all 
of the circumstances that have been described so far and at the same 
time ensure that the legitimate uses by businesses and by residential 
 telephone customers would be protected.  
	I also indicate in the testimony that particularly with the 
introduction of new Internet-based telephone services, such as Voice 
over IP, where people will be providing different types of information 
in the network environment, I think there are actually some First 
Amendment issues where people who might be broadcasting information 
over Voice over IP service would have the right to withhold their 
identity.  And I think that is an interest that the Supreme Court has 
recognized and certainly one that Congress would not want to prohibit 
people from acting upon. 
	So I think in addition to protecting the privacy of telephone 
customers, there are also important free speech reasons why people 
should not be required to dispose their personal telephone numbers, 
unless they intend to cause harm, to engage in fraud, or to harass.  
There are, as you know, Mr. Chairman, statutes that are also 
available to punish those types of activities when hey occur. 
	Finally if I may, I wanted to say just a brief word about our 
filing yesterday at the FCC regarding the recent disclosure concerning 
the possibility that the National Security Agency may have established 
a large database on call detail information.  I understand that this 
issue is a little bit outside the purview of the Subcommittee, but at 
the same time it is very much related to this issue about the privacy of 
telephone numbers.  We have asked the Chairman of the FCC, Mr. Martin, 
to open an investigation into the question of whether Section 222, 
which was the provision of the Communications Act that requires 
telephone companies to protect the privacy of the call record 
information that they have obtained has been violated.  We very much 
hope that the members of the Subcommittee will support that effort.  
We know that Mr. Markey has already indicated that he believes that 
the FCC should undertake an investigation in this matter, and 
Commissioner Michael Cobbs has expressed support for that as well. 
	Anyway, these are the main points of my testimony. As I said, 
I think it is important to distinguish between the legitimate and 
illegitimate circumstances where caller ID "spoofing" might occur.  
And I would be pleased to answer your questions. 
	[The prepared statement of Marc Rotenberg follows:] 

PREPARED STATEMENT OF MARC ROTENBERG, EXECUTIVE DIRECTOR, ELECTRONIC 
PRIVACY INFORMATION CENTER 

Chairman Upton, Ranking Member Markey, and members of the 
subcommittee, thank you for the opportunity to testify today on 
caller ID spoofing and H.R. 5126, the Truth in Caller ID Act of 
2006. My name is Marc Rotenberg and I am President and Executive 
Director of the Electronic Privacy Information Center. EPIC is a 
non-partisan research organization based in Washington, D.C. that 
seeks to focus public attention on emerging civil liberties issues 
and to protect privacy, the First Amendment, and constitutional 
values. 
	Two separate and important privacy interests meet in the issue 
of caller ID spoofing. First, there is the right of a caller not to 
have his or her identity broadcast with every phone call made. There 
are many circumstances where it is not necessary for a person's phone 
number to be disclosed. In fact, in some cases, a person's safety may 
 be placed at risk. Second, there is the right for call recipients to 
be free from pretexting and other fraud that can lead to the loss of 
their privacy, and the threats of stalking, identity theft, and 
harassment. 
The bill as currently drafted does not adequately protect both 
interests. EPIC recommends that any ban on caller ID spoofing include 
an intent requirement, so that spoofing is only prohibited where it 
is clear that the person who does not provide identifying information 
intends to cause harm. By adding a requirement that an offender act 
"with the intent to defraud or harass" the call recipient, we believe 
that H.R. 5126 may provide a tool to protect the privacy of both 
callers and call recipients. We also have concerns about the 
provision that permits law enforcement agencies to possibly 
misrepresent their identities in the context of telecommunications 
services. 

Telephone Customers Have Legitimate Reasons to Withhold Their Phone 
Numbers 
	The introduction of caller ID services and the associated 
Automatic Number Identification (ANI) created new risks to privacy. 
Before these services were offered, telephone customers generally 
had the ability to control the circumstances under which their phone 
numbers were disclosed to others. In many cases, there was little 
need for a telephone customer to disclose a personal phone number 
if, for example, a person was calling a business to inquire about 
the cost or availability of a product or wanted information from a 
government agency. In other cases, there was a genuine concern that 
a person's safety might be at risk. For example, women at shelters who 
were trying to reach their children were very concerned that an 
abusive spouse not be able to find their location. 
	The state public utility commissions, the FCC, and the 
Congress all worked to establish safeguards so that individuals would 
have some ability to limit the disclosure of their telephone numbers 
either by means of per-call blocking or per-line blocking. As a 
general matter, privacy advocates favored per-line blocking for all 
residential telephone customers because we did not see the benefit in 
requiring individuals to disclose their phone numbers and we objected 
to the cost that customers were asked to pay to obtain per-line 
blocking services. 
	In the context of the Internet and the offering of voice 
services over Internet Protocol (VOIP), there are additional concerns 
about the circumstances under which a person may be required to 
disclose their identity. The Supreme Court has already made clear 
that the Internet is entitled to a high level of First Amendment 
protection.1	Anonymous speech is a central facet of the free 
speech guaranteed by the First Amendment. Without it, speakers with 
minority opinions are subject to the tyranny of the majority. The 
Supreme Court has recognized the importance of protecting anonymous 
speech in a series of cases, including Watchtower Bible & Tract 
Society v. Village of Stratton,2 McIntyre v. Ohio Elections 
Commission,3 and Talley v. California.4 In each of these cases, the 
Supreme Court recognized that, to protect speech, anonymous speech 
needed to be protected. A speaker's decision to remain anonymous, the 
Court said in McIntyre, "like other decisions concerning omissions or 
additions to the content of a publication, is an aspect of the 
freedom of speech protected by the First Amendment.5  

Caller ID Blocking Does Not Adequately Protect Privacy Interests 
	In order to protect telephone users' right to speak anonymously 
in the face of caller ID, caller ID blocking services were offered. By 
going through the extra step of dialing *67 before making a call, or by 
paying for permanent blocking, a user can prevent his or her number 
from being disclosed to the call recipient. 
	Despite some of the drawbacks to this system (having to pay 
for permanent privacy, for instance), caller ID blocking may seem 
like a viable means for allowing callers to protect their anonymity 
while not misleading recipients. However, caller ID blocking is not a 
complete solution. One reason for this is that caller ID is not the 
only way that a caller can be identified. Another system, known as 
Automatic Number Identification, or ANI, will still disclose a caller's 
identity in many situations, regardless of whether or not the caller 
used call blocking. This means that many businesses, emergency service 
providers, and anyone with a toll-free number can reliably gain the 
phone number of a caller, even if caller ID is blocked. Spoofing 
services can protect the anonymity of a caller's ANI data when calling 
toll-free numbers and those entities that use ANI identification. 
	Another problem with requiring callers to disclose the number 
they call from is that many individuals to protect the have legitimate 
reasons to report a different number than the one presented on caller 
ID. For example, a person may well wish to keep her direct line 
private when making calls from within an organization. Such an 
arrangement legitimately gives call recipients a number to which they 
can return a call, but prevents an individual person's phone from being 
 inundated with calls that should be routed elsewhere. 

Spoofing Can Create Privacy Risks 
	This is not to say that caller ID spoofing is an unqualified 
good--far from it. Earlier this year, EPIC brought to Congress's 
attention the problem of pretexting consumers' phone records.6 
Pretexting is a technique by which a bad actor can obtain an 
individual's personal information by impersonating a trusted entity. 
For instance, pretexters would obtain individuals' phone records by 
calling phone companies and pretending to be the individuals 
themselves. This tactic of fraud can be used in other situations as 
well, such as obtaining an individual's Social Security number by 
pretending to be the individual's bank or insurance company. 
	Understandably, caller ID spoofing is an important weapon in 
a pretexter's arsenal. Rob Douglas of PrivacyToday.com, with whom 
EPIC has worked on the pretexting issue, noted how fraudsters would 
use spoofing services in order to fool customers into thinking that 
fraudulent calls were coming from trusted sources.7 
	Nor can we ignore the privacy interests of those who decline 
to accept calls from unknown numbers. If an individual has been 
habitually harassed by calls from a caller-ID blocked number, we 
should not permit the harasser to use spoofing as a means to 
circumvent the individual's screening. At the same time, it is clear 
that there could be prosecution for harassment whether or not 
additional prohibition on spoofing were enacted.8 

Intent Requirement 
	Just as we cannot assume that all those who draw their 
curtains have something to hide, we cannot assume that every caller 
who spoofs their number is a bad actor. Callers from within a company 
might want to keep their direct lines private. Law enforcement 
informants and whistleblowers who call a toll-free tip line have 
good reason for keeping their calling information private. 
	What distinguishes these legitimate uses of spoofing from a 
pretexter pretending to be a bank in order to get account 
information, or a cyberstalker spoofing in order to harass his 
victim, is the intent behind the spoofing. However, as it currently 
stands, H.R. 5126 does not draw a distinction between these intents. 
	We believe that the insertion of a phrase--"with the intent 
to defraud or harass"--into Section 2(e)(1) of the bill will preserve 
the privacy rights of callers while outlawing fraud and harassment 
assisted by the technology. 


Significance of NSA Surveillance Program for Privacy of Call Records 
	Mr. Chairman, it is difficult to comment on the legislation 
before the Subcommittee today without also noting the recent 
revelation that the National Security Agency may have constructed a 
massive database of telephone toll records of American consumers. 
	Yesterday, EPIC filed a complaint with the Federal 
Communications Commission in which we alleged that section 222 of the 
 Communications Act, which protects the privacy of customer record 
 information, may have been violated. We urged the Commission to 
undertake an investigation of this issue. 
	Given the very real possibility that the telephone numbers 
of American consumers may have been improperly disclosed by the 
telephone companies to the National Security Agency without legal 
authority there is the obvious consideration that some telephone 
customers may choose to take advantage of "spoofing" services to 
protect their privacy against unlawful surveillance. 
	Clearly, the issues raised by the NSA program include some 
matters that are not typically considered by this Subcommittee. But 
we would urge Members to support EPIC's recommendation that the 
FCC undertake an investigation of the possibly improper disclosure. 
If the Communications Act was violated, that should be of concern. 
	And it would seem doubly unfair for the Committee to push 
forward legislation that would prevent telephone customers from 
protecting the privacy of their phone numbers at the same time 
questions have been raised about whether phone records are subject 
to unlawful searches. 

Conclusion 
	Spoofing caller ID numbers can create a real risk to 
individuals who might be defrauded by bad actors. However, 
protecting callers' privacy rights, means that any ban on spoofing 
take into account the intent of the caller. By prohibiting spoofing 
with an intent to defraud or mislead the call recipient, the Truth 
in Caller ID Act would be significantly improved. I will be happy 
to answer any questions you might have at this time. 

	MR. UPTON.  Well, thank you.  Thank you again for your travel 
from the West Coast and Texas as well.  I have a couple of questions 
and we will proceed on our 5 minutes and rotate among Members here.  
Mr. Navin, a couple questions for you.  Has the FCC actually gotten 
complaints from folks with regard to "spoofing"?  And if so, how 
many?  Has it come to your attention? 
	MR. NAVIN.  I have consulted with our Consumer and 
Governmental Affairs Bureau and they indicate that they have 
received approximately 20 complaints--20 more formal complaints on 
this and perhaps five times that number of inquiries with regard to 
caller ID "spoofing" in general. 
	MR. UPTON.  And you know, when we passed the Do Not Call List 
a couple years ago now, and of course the FTC is where we call to get 
on that list.  I do not know if you tried with your counterparts at 
the FTC as it relates to this at all--maybe we should have asked the 
Chair when she was here the other day about that issue.  Do you know 
if there has been any communication between the FCC and the FTC in 
terms of complaints that might have gone to them? 
	MR. NAVIN.  I understand that our enforcement bureau has 
reached out to the folks at the FTC.  I do not know the answer to 
your specific question about whether they are doing any investigations 
themselves.  But I know that they are fully aware of our activities in 
terms of the companies that we have contacted and our efforts to gather 
more information about this problem.  But I cannot speak to what the 
FTC is actually doing. 
	MR. UPTON.  I would think that if this legislation were to 
become law tomorrow these companies that are offering their services to 
 "spoof" would likely go out of business like that.  Would you suspect 
that that is the case? 
	MR. NAVIN.  I really could not make a prediction on that.  I 
think that to the extent that they are offering this service to mislead 
or defraud the customer, I think that they very well may be captured by 
the legislation.  As I understand it, there has also been some debate 
about adding an intent requirement, and that could certainly play a 
role in the Commission's ability to enforce the legislation.  So I 
could not say for sure that everyone would go out of business. 
	MR. UPTON.  Okay.  I really view this as someone coming to 
your door.  I mean, I like caller ID.  Got it on my phones, and I 
know who it is.  It is going to be for my son or it is going to be 
for my daughter.  It is going to be for my wife, me, or whoever it 
is.  And it is very much like someone knocks on your door.  Often 
you look out the little window or--figure out who it is that is 
coming in.  And I do not know if the FCC--have you all ever thought 
about--do you think that you have the actual rule-making ability to 
do this without legislation or do you really need legislation to try 
and prevent "spoofing" from occurring? 
	MR. NAVIN.  Certainly one of the challenges for the 
Commission as communications have migrated to Internet-based 
platforms has been the nature of the investigative targets.  The 
Commission finds itself calling on companies that have not 
traditionally been regulated by the Commission because they are not 
license holders or entities that have been typically or historically 
regulated by the Commission.  So I think that there is some concern. 
 There is always some concern on the part of the Commission relating 
to its enforcement authority in the Internet context.  And I think 
that the Commission would be particularly concerned about any 
restrictive definitions in the legislation as it relates to VoIP 
service providers.  I think that a restrictive definition in this 
context may have unintended consequences for the Commission in other 
contexts, including the public safety context and the law enforcement 
context. 
	MR. UPTON.  Thank you.  Mr. Engel? 
	MR. ENGEL.  Thank you, Mr. Chairman. 
	Mr. Navin, do you think the authority needs or are there 
things we could possibly add that you think would be helpful? 
	MR. NAVIN.  I would repeat my comment about the definition of 
VoIP service providers in this bill.  The definition of VoIP service 
providers in this bill would seem to limit the Commission's flexibility 
to expand the definition to include one-way services, for example, or 
services that are not offered for a fee.  I know that the Department of 
Justice recently filed with the Commission in another docket--in the 
CALEA docket--its concerns about any definition of VoIP providers that 
is restrictive because of the substitution that is going on between 
communication services today. 
	MR. ENGEL.  Thank you.  Ms. Pies, I see in your testimony you 
mentioned you think people would ignore the phone to continue watching 
C-SPAN.  So my question to you is have you been talking to my mother in 
 Florida?  Because she is the only one I know who does that. 
	MS. PIES.  Actually, my father watches C-SPAN all the time 
and calls me and asks why I have not testified yet, so here I am. 
	MR. ENGEL.  Well, when I come home my wife says--she sees me 
turning on C-SPAN and she says to me after doing this all day, you come 
home and turn on C-SPAN.  You have got to be kidding.  But today is my 
anniversary and I have been married 26 years, so something has been 
working.  I do not know.  Sir, thank you. 
	MR. UPTON.  She is watching right now. 
	MR. ENGEL.  That is why, you see?  Now where are the C-SPAN 
cameras? 
	MS. PIES.  That is a nice gift.  Congratulations. 
	MR. ENGEL.  Thanks.  Seriously, though.  I want to commend 
the VoIP providers.  It is an exciting technology.  And many 
thousands of my constituents have started using Cablevision's 
Optimum Voice Service.  But I understand that there is no standard 
for VoIP providers when it comes to caller ID.  So I want to ask you. 
 Do most programs let someone manually enter any caller ID information 
they want? 
	MS. PIES.  I can't speak for most VoIP services.  I do know 
that a number of residential services that are designed essentially 
to replace your plain old telephone service only permit the user to 
have the numbers that are assigned to them.  So for instance, if I 
could select one number or if I can select five, those are my five 
numbers and I can use any of them.  They are my numbers.  Some 
services that again may be unlawful or illegitimate may not stop 
that, but I do not actually have knowledge of who those providers 
might be, if that happens at all. 
	MR. ENGEL.  Thank you.  Is the VoIP industry working toward 
a standard for how to handle this so that it would be uniform? 
	MS. PIES.  That is an interesting question.  There are a lot 
of different standards that are used to transmit calls that originate 
to IP.  In many instances, IP-originated calls do not have a standard 
telephone number associated with them.  And in those instances, there 
are no standards but international requirements that the provider can 
use a different code to transmit.  And that code is, I believe, 
000123456.  Because VoIP calls do not have the same tie to geography 
that plain old telephone calls have, the phone number is in many 
instances irrelevant.  And so rather than retrofitting our networks 
to add a phone number that has no meaning, providers often do not 
engage in any change or manipulation at all. 
	MR. ENGEL.  Thank you.  Mr. James, if you could see one thing 
added, removed, or changed in this bill, what would it be? 
	MR. JAMES.  I would honestly focus on the intent behind the 
bill.  And the reason I say this is because if you look at other 
crimes that exist on the Internet such as SPAM or phishing--the 
techniques that are used for phishing are very common.  An example 
as layman as possible, I will try to be--you can mirror a website.  
You can set up a "spoofed" email.  You can then send out the mass 
mailing.  If you look at all three of those techniques specifically, 
all three of those are legal when they are used legitimately.  You 
can mirror a website.  There is nothing wrong with that.  You can 
"spoof" your email if you are showing someone a demonstration.  
People do it all the time when they change their identity on their 
email from multiple mail accounts.  They literally are just changing 
their email address, but it is going through a different mail server. 
And on the third one, you can do the same mass mailing with bulk mail 
campaigns for marketing that have opt-in lists and all these such 
things.  So there are mainly two things that I would focus on.  
I agree with Mr. Navin on the VoIP definition needs to be broadened. 
 And the reason why are we have to also look at successors to VoIP in 
the sense of--smart homes is a good example.  Not all of them are 
two-way.  What if you are doing a home alert safety system for your 
grandmother and you want to just use VoIP to do the intercom system 
over the Internet and say are you okay?  That is a one-way system.  
So VoIP could still be utilized in that and that is one-way.  So I 
think that we should open that expansion a little bit.  I would 
recommend going to the U.S. Patent Office, looking up if the 
definitions of VoIP are defined there, and start maybe using those 
types of techniques there.  
Another thing that I would see to expand on the bill possibly is, 
agreeing with Mr. Rotenberg on the legitimacy and the illegitimacy 
concepts.  The reason why is--one of the things that I think that 
might want to be added to the clause of illegitimate activity is 
that teeth need to be added to this bill.  And what I mean by that 
is that technology should be in place in telecom providers to help 
detect illegitimate activity so that you can actually enforce this. 
 Because caller ID "spoofing" is essentially anonymous in many cases 
and it becomes very difficult to track down. 
	MR. ENGEL.  If you would just indulge me, Mr. Chairman, I 
would like to ask Mr. Rotenberg the same question.  I know you 
mentioned it in your testimony.  But if you want to add anything, if 
you could see one thing added, removed, or changed in the bill, what 
\would it be? 
	MR. ROTENBERG.  Mr. Engel, I think adding the intent 
requirement is the key addition.  And what that effectively does 
would be to distinguish between the people who are "spoofing" with 
mal intent and the people who are "spoofing" with a legitimate 
business  purpose or privacy interest.  I think virtually all of the 
witnesses have made a similar point, so I hope it is a change that 
the Subcommittee would make. 
	MR. ENGEL.  All right.  Well, thank you.  Mr. Navin, do you 
want to add anything?  I know we talked about the FCC but is there 
anything else that you would want to add about the bill?  If you 
could see one thing added, removed, or changed, what would it be? 
	MR. NAVIN.  I would emphasize that the Commission will take 
all steps that it can possibly take to implement the legislation 
however Congress determines to pass it, but I think it is important 
that the definition of VoIP services in the bill does not 
necessarily restrict the Commission's authority as it relates to 
solving this problem as well as other problems that the Commission 
faces, including 911 and law enforcement.  Thank you. 
	MR. ENGEL.  Thank you.  Thank you, Mr. Chairman. 
	MR. UPTON.  Mr. Terry? 
	MR. TERRY.  Thank you, Mr. Chairman.  I will go back to my 
opening statement.  I guess the specific question as the bill is 
written now, under this assumption a tele-services company has a 
contract with XYZ Corporation to do outbound calls trying to get them 
to subscribe to more credit card services, let us say, for example.  
And the telemarketing service is located in Omaha, Nebraska.  The 
client is located in New York City and uses the general number for 
their client as the caller ID number.  So the intent is to use a 
different number, but one of their client.  Mr. Navin, and then I 
will go down the panel, so we have the intent to use a different 
phone number.  Is that conduct "spoofing" under this bill?  And 
then after that, should it be or should it not be "spoofing"? 
	MR. NAVIN.  As I understand it, the focus of the bill is 
misleading or inaccurate caller ID information.  Based upon the 
Commission's existing rules that the Commission adopted in 2003, 
in the Do Not Call proceeding, it does not seem to me that the 
hypothetical that you gave would fall within the definition of 
inaccurate or misleading information.  Indeed, under the 
Commission's rules, any person or entity that engages in 
telemarketing must transmit caller ID information.  Any person or 
entity that engages in telemarketing is prohibited from blocking 
the transmission of caller ID information.  The telemarketers may, 
however, substitute for the name and phone number used or billed 
for making the call the name of the seller on behalf of which the 
 telemarketing call is placed and the seller's customer service 
telephone number.  So according to the Commission's existing rules, 
which I think were designed to get at the issue of inaccurate or 
misleading information, I do not think that your hypothetical 
creates a problem. 
	MR. TERRY.  All right.  So there is nothing in this bill 
that would then, in essence, create an issue of trumping your 
regulatory language? 
	MR. NAVIN.  I do not believe so.  Certainly if necessary 
you could specifically make reference to the Commission's rules and 
preserve the Commission's existing rules in this regard to ensure that 
 telemarketers are not captured by this legislation. 
	MR. TERRY.  All right.  The other three, I will ask it in a 
different way.  And that is just is that a legitimate business 
practice for a telemarketer to use the caller ID number of their 
client instead of it having to come up XYZ Telemarketing?  I will 
just let you go down whether that is acceptable or whether that is 
fraudulent. 
	MS. PIES.  Not only is it acceptable, and as Mr. Navin 
mentioned, required by the FCC rules, it is an enabling feature of 
VoIP technology.  As you know, it is not just in the telemarketing 
business, but it allows jobs to be in-sourced to rural areas, to 
people who may not be able to get out to a call center.  They can 
actually work from home.  Rather than their home number showing up, 
it would be a central phone number that shows up.  So it is actually 
a very important feature.  I am not sure that the legislation as it 
is drafted today actually gets at allowing it.  Probably if you went 
back and included intent language, as we have discussed, that would 
be very helpful. 
	MR. JAMES.  The answer to this is it is definitely applicable 
in marketing, whether it is telemarketing or some other.  And I will 
give an example of that.  Two days ago, I saw a Bank of America email 
talking about their partnership with eHealth Insurance.  It was sent 
by a third party but it said it was from Bank of America.  But if you 
 go through the mail headers, it is not really sent from Bank of 
America's system.  It is actually sent from their marketing third 
party vendor.  So in a case such as this, yes, there is a very 
legitimate use, and I think that I am agreeing with virtually everybody 
as well on this panel that "legitimate" needs to be defined.  If you 
look at the bill today, it technically could surpass because one would 
argue misleading.  Well, we are not misleading.  We are calling on 
behalf of our client, and technically that falls under this bill that 
says, we are not misleading anything, but I would want to clarify that 
further along so that we are not even having to go to a hearing about 
it and debating the issue or going to court on this issue, so that it 
is more defined. 
	MR. ROTENBERG.  Mr. Terry, I actually disagree with Mr. Navin's 
assessment about how the language would be interpreted in this bill. 
He is referring to earlier legislation and rulemaking that was 
explicitly enabled by that statute for the FCC to develop regulations 
and to interpret terms.  This bill which is before your subcommittee 
is, first of all, more recent in time.  Secondly, it doesn't 
incorporate the earlier definitions.  And third, it creates no 
rulemaking authority for the FCC to do so.  And, at first impression, 
if a court looks at the language of this statute, this statute 
prohibits making a call in which misleading or inaccurate caller 
identification information is provided.  I think those words are fairly 
straightforward.  So in the absence of similar authority for the FCC to 
 conduct a rulemaking and interpret those terms, I think it would not 
provide protection for the type of tele-services you have described.  
And I think the better approach would, in fact, be to create an 
explicit intent requirement that would protect businesses that are 
not engaging in fraudulent or harassing activity. 
	MR. TERRY.  Very good, thank you.  
	MR. UPTON.  Mr. Inslee?
	MR. INSLEE.  Thank you.  Mr. Rotenberg, just briefly on the 
issue of surveillance.  You indicated that it would be a good idea 
for Members of Congress to weigh in on this.  What would you suggest 
about a strategy in that regard? 
	MR. ROTENBERG.  Well, Mr. Inslee, we would very much appreciate 
support from the subcommittee members, certainly of both parties, 
encouraging Chairman Martin to open an investigation as to whether 
Section 222 was violated.  You know that earlier this year, hearings 
were held on the question of pre-texting, which is the way in which 
people's personal telephone numbers became available for sale on the 
Internet, and a lot of good work was done in this committee, and 
Chairman Martin testified about the importance of protecting the 
privacy of those records.  Very similar issues, but of course on a 
much larger scope, have arisen now in the context of the domestic 
surveillance program, and we hope that Chairman Martin will be 
encouraged to pursue this investigation.  
	MR. INSLEE.  I will join others in doing that.  Just so you 
know, I will be bringing in an amendment--a little bit related issue 
on the Defense Department Appropriations Bill that will prohibit the 
expenditure of taxpayer money for electronic surveillance that does 
not comply with the FISA law.  So we will be having a debate on the 
House floor here in a few weeks. 
	MR. ROTENBERG.  Thank you. 
	MR. UPTON.  Mr. Engel, do you have additional questions? 
	MR. ENGEL.  Well, I have just one kind of light-hearted 
question.  I understand that our computer engineers are working on 
what is called Internet-2.  I really, to tell you the truth, don't 
know a lot about it, but I believe it is supposed to be an upgrade, 
like going from Windows ?98 to XP, and I am sure we will be holding 
hearings on it.  My question is to anybody.  Do any of you know if 
Internet-2 will help this situation that we are talking about it 
today, or possibly make it worse?  Mr. James. 
	MR. JAMES.  If I may?  I don't think that--Internet-2 is 
technically a medium for communication.  I was kind of thinking about 
when I was going through this bill about, one of the reasons why I 
agree with Mr. Navin about expanding is we could get into a predecessor 
scenario of VoIP working on an IPX protocol instead of the standard 
internet TCP/IP protocol, and that would basically not be covered by 
this bill because it specifically says TCP/IP.  And I was actually 
thinking if Internet-2 is one of the examples, what happens there?  
Is it going to be using the same protocol?  Will it be defined in 
this bill?  I don't think that Internet-2 is going to necessarily 
secure the techniques against caller ID "spoofing", because the 
problem is at a protocol layer of the actual VoIP--without getting 
technical, it is basically a session initiation protocol.  It is 
basically this specific protocol, and that is where the weakness 
lies.  It doesn't really matter what it communicates on.  If 
Internet-2 does buy into, like, cryptographic communication per 
every communication it ever makes, an authentication on every little 
 communication your computer may make, and so it does accountability 
and auditing trails and all this.  There is a very good chance that 
we could stem it down because of the fact that we could track the 
activity itself.  But, unless it does something like that, which I 
don't believe it does at this time, it is not going to be much more 
effective. 
	MR. ENGEL.  Thank you.  If we have hearings about it, we should 
call you back again.  Anybody else? 
	MS. PIES.  Mr. Engel, I just wanted to mention that the 
committee or subcommittee should approach the definition and what it 
 encompasses cautiously.  Certainly, Congress should want to ensure 
that any legislation enables new technology and the new features that 
are so important for both residential users and businesses rather than 
stifling the technology.  And the concern that the VoIP industry has is 
not, certainly, any desire to get out of obligations or to ensure the 
safety and security of our Nation, but it is that we won't be able to 
continue to make the investments that will bring these transformative 
technologies to consumers.  And so it is not a specific request, but 
just sort of a word of caution. 
	MR. ENGEL.  Well, thank you.  I appreciate that.  Thank you, Mr. 
Chairman. 
	MR. UPTON.  Thank you, again, for your leadership on this issue.  
Mr. Navin, I have one last question, and that is if we were to add the 
clause or intent to defraud as part of this legislation standard to the 
bill, how would that affect your efforts to enforce the law? 
	MR. NAVIN.  I think that, from the Commission's vantage 
point, any time you add an intent standard, it puts an additional 
evidentiary burden on the Commission in its enforcement process, so I 
think it would make it more difficult to enforce.  The Commission would 
 certainly take all steps necessary to enforce the law, but I think it 
would indeed make it more difficult. 
	MR. UPTON.  And, with that, I will yield to my friend, Mr. 
Markey-- 
	MR. MARKEY.  Thank you. 
	MR. UPTON.  --in the nick of time. 
	MR. MARKEY.  Thank you so much.  Mr. Navin, is it?  Navin. In 
your testimony, you note that the Commission addressed caller ID on the 
public switch telecom network in 1995, with a rule which requires all 
carriers using Signaling Systems 7 to transmit the calling party number 
 associated with an interstate call to interconnecting carriers.  Did 
the recently granted Verizon forbearance petition remove this 
requirement for Verizon? 
	MR. NAVIN.  The Verizon forbearance petition sought flexibility 
from certain common carrier regulations.  I don't specifically recall 
whether they enumerated this regulation in their petition.  
The Commission did not deny that petition within the statutorily 
defined period of time and, according to the statute, if the 
Commission fails to take action, the petition is deemed granted.  
So I don't know whether they specifically enumerated this regulation 
in their petition. 
	MR. MARKEY.  So they did not grant forbearance from all of 
Title II, is that what you are saying? 
	MR. NAVIN.  My recollection is that there were certain 
obligations that Verizon carved out of its application, and I know, 
for example, in an ex parte in the beginning of February, they made 
it plain to the Commission that their petition did not include asking 
the Commission to remove the Section 254 obligation, which is the 
universal service obligation.  I also know that in one of those ex 
partes, they restricted the scope of the petition to exclude certain 
special access services that they are providing today.  So I don't know 
if they specifically excluded--	MR. MARKEY.  You don't know. 
	MR. NAVIN.  --this. 
	MR. MARKEY.  Okay.  Did they list Section 222, the CPNI section? 
	MR. NAVIN.  In the original petition, they asked for relief from 
all common carrier regulation.  Section 222 is within the body of law 
under Title II of the Act, so I think it is certainly arguable that 
they included, or intended to include, this within the scope of the 
petition to the extent that they were seeking to get out from Title II. 
	MR. MARKEY.  Okay.  So many of us are concerned about 
allegations that carriers circumvented the Section 222 Customer Privacy 
rules and gave calling data to the NSA.  And yet the FCC recently granted 
Verizon the right to avoid these rules, and many others, when it granted 
through inaction the Verizon forbearance petition.  Mr. Rotenberg, 
could you comment on that? 
	MR. ROTENBERG.  Well, Mr. Markey, we are honestly concerned if 
the telephone companies are trying to get out from under the Section 
222 obligations, particularly, as you note, in light of the recent 
allegations.  We are not familiar with the Verizon forbearance 
petition, but I will point out that this provision of the 
Communications Act traces its routes, actually, to the original 
passage, back in 1934, when telephone companies were asked to ensure 
that the privacy of their customers would be protected.  So obviously 
this would be of great concern. 
	MR. MARKEY.  Okay.  Mr. Navin, when do you expect to 
complete the Notice of Proposed Rulemaking on CPNI? 
	MR. NAVIN.  I believe that we have received comments in that 
proceeding, but we have not yet received reply comments.  I think that 
we would wait until the record closed before we began the process of 
presenting options to the commissioners.  I think that the reply comment 
period closes either later this month or early in June, so I think that 
we will begin to brief the commissioners and present options to them 
some time thereafter. 
	MR. MARKEY.  Okay.  And I would ask you just, Mr. Rotenberg, 
if you could, just tell me--if you could just summarize the one thing 
you want us to remember about the issue that we are dealing with in the 
hearing today? 
	MR. ROTENBERG.  Well, Mr. Markey, on the legislation before the 
committee, we feel very strongly that an intent requirement needs to be 
added to distinguish between legitimate and illegitimate uses for caller 
ID "spoofing".  And as for the other issue you raised, we very much 
support the effort to encourage Chairman Martin to conduct an 
investigation to Section 222 and the allegation that information was 
improperly disclosed. 
	MR. MARKEY.  Thank you.  Well, I have asked the Chairman of 
the--I have asked Chairman Martin to give us information as to what 
exactly has taken place in the relationship between the telephone 
companies and the NSA so that we can have more information to 
determine whether or not any privacy laws have been violated, or any 
other laws that have pass by this Committee that may have been 
violated.  So I thank you, Mr. Chairman, for this lively and 
entertaining-- MR. UPTON.  I didn't see a Starbucks cup there. 
	MR. MARKEY.  --and--which probably means I am not really 
awake, even if I am sitting here, at this point.  But I thank you 
for the hearing, Mr. Chairman. 
	MR. UPTON.  Thank you all for being here.  I appreciate 
your testimony.  I would say that it is my understanding that it 
is likely that we will move to a markup relatively soon on this 
bill before the full committee, and I appreciate your input and 
your thoughts, and we look forward to continuing on a bipartisan 
path.  With that, we are adjourned. 
	[Whereupon, at 10:19 a.m., the subcommittee was adjourned.] 

SUBMISSION FOR THE RECORD BY DAVID SLOANE, SR. MANAGING DIRECTOR, GOVERNMENT RELATIONS AND ADVOCACY, AARP 


1 ACLU v. Reno, 521 U.S. 844 (1997).
2 536 U.S. 150 (2002).
3 514 U.S. 334 (1995).
4 362 U.S. 60 (1960).
5 McIntyre, 536 U.S. at 342.
6 Protecting Consumers' Phone Records: Before the Subcomm. on Consumer 
Affairs, Product Safety, and Insurance of the S. Comm. on Commerce, 
Science, and Transportation, 109th Cong. (2006) (statement of Marc 
Rotenberg, President and Executive Director, Electronic Privacy 
Information Center) http://www.epic.org/privacy/iei/
sencomtest2806.html; Phone Records for Sale: Why Aren't Phone 
Records Safe From Pretexting?: Before the H. Comm. on Energy and 
Commerce, 109th Cong. (2006) (statement of Marc Rotenberg, President 
and Executive Director, Electronic Privacy Information Center) 
http://www.epic.org/privacy/iei/pretext_testimony.pdf. 
7 Phone Records for Sale: Why Aren't Phone Records Safe From 
Pretexting?: Before the H. Comm. on Energy and Commerce, 109th Cong. 
(2006) (statement of Robert Douglas, CEO, PrivacyToday.com) 
 http://www.privacytoday.com/HC020106.htm. 
8 See 47 U.S.C.  223; 47 U.S.C.  227. 41 (1) 



</pre></body></html>
